<html>
<title> - COMBATING TERRORISM: ASSESSING THE THREAT</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



               COMBATING TERRORISM: ASSESSING THE THREAT

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  VETERANS AFFAIRS, AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 20, 1999

                               __________

                           Serial No. 106-109

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
63-765                     WASHINGTON : 2000


                                 ______

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

Subcommittee on National Security, Veterans Affairs, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
ILEANA ROS-LEHTINEN, Florida         TOM LANTOS, California
JOHN M. McHUGH, New York             ROBERT E. WISE, Jr., West Virginia
JOHN L. MICA, Florida                JOHN F. TIERNEY, Massachusetts
DAVID M. McINTOSH, Indiana           THOMAS H. ALLEN, Maine
MARSHALL ``MARK'' SANFORD, South     EDOLPHUS TOWNS, New York
    Carolina                         BERNARD SANDERS, Vermont 
LEE TERRY, Nebraska                      (Independent)
JUDY BIGGERT, Illinois               JANICE D. SCHAKOWSKY, Illinois
HELEN CHENOWETH-HAGE, Idaho

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                Michele Lang, Professional Staff Member
                Robert Newman, Professional Staff Member
                           Jason Chung, Clerk
                    David Rapallo, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 20, 1999.................................     1
Statement of:
    Hinton, Henry L., Jr., Assistant Comptroller General, 
      National Security and International Affairs Division, 
      General Accounting Office, accompanied by Deborah A. 
      Colantonio, Senior Evaluator; and Davi M. D'Agostino, 
      Assistant Director.........................................     9
    Jenkins, Brian M., senior advisor to the president, RAND; 
      John V. Parachini, senior associate, Center for 
      Nonproliferation Studies, Monterrey Institute of 
      International Studies; and Raymond Zilinskas, senior 
      scientist in residence, Biological and Toxin Arms Control, 
      Monterey Institute of International Studies................    37
Letters, statements, et cetera, submitted for the record by:
    Blagojevich, Hon. Rod R., a Representative in Congress from 
      the State of Illinois, prepared statement of...............     6
    Hinton, Henry L., Jr., Assistant Comptroller General, 
      National Security and International Affairs Division, 
      General Accounting Office:
        Information concerning the Chemical Weapons Convention...    30
        Prepared statement of....................................    13
    Jenkins, Brian M., senior advisor to the president, RAND, 
      prepared statement of......................................    40
    Parachini, John V., senior associate, Center for 
      Nonproliferation Studies, Monterrey Institute of 
      International Studies, prepared statement of...............    49
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Zilinskas, Raymond, senior scientist in residence, Biological 
      and Toxin Arms Control, Monterey Institute of International 
      Studies, prepared statement of.............................    77

 
               COMBATING TERRORISM: ASSESSING THE THREAT

                              ----------                              


                      WEDNESDAY, OCTOBER 20, 1999

                  House of Representatives,
       Subcommittee on National Security, Veterans 
              Affairs, and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:30 a.m., in 
room 2247, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Souder, Terry, and 
Blagojevich.
    Staff present: Lawrence J. Halloran, staff director and 
counsel; Michele Lang and Robert Newman, professional staff 
members; Jason Chung, clerk; David Rapallo, minority counsel; 
and Earley Green, minority staff assistant.
    Mr. Shays. I would like to call this hearing to order.
    We are going to be having a vote, but I will see if I can 
get some of the preliminaries done.
    This is our fifth hearing on Federal efforts to combat 
terrorism at home and abroad. In previous sessions, we examined 
governmentwide spending coordination and specific programs to 
train first responders, deploy National Guard rapid response 
teams and strengthen public health capabilities to deal with 
weapons of mass destruction.
    Underlying all that testimony was one question: How should 
we fix spending priorities and establish programs to meet an 
inherently unpredictable, constantly changing threat?
    To address that question, we asked the General Accounting 
Office [GAO], to examine one dimension of the threat: the 
scientific and practical aspects of terrorists carrying out 
large-scale chemical or biological attacks on U.S. soil. Their 
report discusses the degrees of difficulty terrorists face when 
trying to acquire, process, improvise and disseminate certain 
chemical and biological agents to inflict mass casualties of 
1,000 or more. GAO recommends using that type of information to 
improve systematic threat assessments and refine Federal 
program targeting.
    That will not be easy. By its nature, terrorism partakes of 
the irrational and will not always succumb to rational 
dissection by the tools of threat assessment and risk 
management. Any rigid ranking of terrorists' histories, 
capabilities, and intentions appears to equate likelihood with 
lethality, understating the threat posed by low probability, 
yet highly consequential, chemical and biological attacks.
    But the threat can just as easily be overstated. 
Vulnerability alone is an inadequate measure, drawing scarce 
resources in 1,000 directions. Preparing for every worst case 
scenario is neither practical nor affordable and carries the 
additional risk we terrorize ourselves by starving other fiscal 
priorities and surrendering civil liberties.
    As the threat of biological and chemical terrorism evolves, 
so should our response. Just as we learned to assess, and to a 
degree accept, the nuclear threat in the 1950's and 1960's, our 
assessment of the risks posed by terrorism will need to adapt 
to the changing world environment of the next century.
    Federal programs, not known for flexibility or 
adaptability, will need to change as well. What will guide 
those changes? Increasingly sophisticated judgments or 
generalized fears? Prudent planning or budgetary momentum? 
These are the issues we will confront today, and in future 
hearings, as our oversight continues.
    Our witnesses this morning bring significant expertise and 
insight to our discussion of an important national security 
issue. We appreciate their time and look forward to their 
testimony.
    At this time, I ask if Mr. Souder has any comments he would 
like to make.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T3765.001
    
    [GRAPHIC] [TIFF OMITTED] T3765.002
    
    Mr. Souder. No.
    Mr. Shays. Let me take care of unanimous consents. I ask 
unanimous consent that all members of the subcommittee be 
permitted to place an opening statement in the record and that 
the record remain open for 3 days for that purpose, and without 
objection, so ordered.
    [The prepared statement of Hon. Rod R. Blagojevich 
follows:]

[GRAPHIC] [TIFF OMITTED] T3765.003

[GRAPHIC] [TIFF OMITTED] T3765.004

[GRAPHIC] [TIFF OMITTED] T3765.005

    Mr. Shays. I ask further unanimous consent that all 
witnesses be permitted to include their written statements in 
the record and, without objection, so ordered.
    As our first witness, we have Henry Hinton, Jr., Assistant 
Comptroller General, National Security and International 
Affairs Division, General Accounting Office; and Deborah A. 
Colantonio and Davi M. D'Agostino. And would you state your 
titles?
    Ms. Colantonio. I am a Senior Evaluator.
    Ms. D'Agostino. I am an Assistant Director.
    Mr. Shays. Why don't you start your testimony? I think you 
will be able to finish, and then we will have a vote.
    Mr. Hinton. Mr. Chairman, Mr. Souder----
    Mr. Shays. Excuse me, we do swear everyone in, including 
yourself.
    [Witnesses sworn.]
    Mr. Shays. For the record, everyone has responded in the 
affirmative.
    We will do 5 minutes and then roll the clock over for 
another 5 minutes.

   STATEMENT OF HENRY L. HINTON, JR., ASSISTANT COMPTROLLER 
GENERAL, NATIONAL SECURITY AND INTERNATIONAL AFFAIRS DIVISION, 
     GENERAL ACCOUNTING OFFICE, ACCOMPANIED BY DEBORAH A. 
COLANTONIO, SENIOR EVALUATOR; AND DAVI M. D'AGOSTINO, ASSISTANT 
                            DIRECTOR

    Mr. Hinton. Mr. Chairman, Mr. Souder, I am pleased to be 
here this morning to discuss our recent report on combating 
terrorism that you referred to.
    I will first discuss the ease or difficulty for terrorists 
to conduct large-scale chemical and biological attacks.
    Second, I will cover the extent to which the threat of such 
attacks have been assessed.
    But before I begin, Mr. Chairman, I want to clarify for you 
what we did and what we did not do in our work.
    We consulted with experts in numerous fields to look at the 
scientific and practical aspects of terrorists successfully 
carrying out large-scale chemical or biological attacks that 
might cause mass casualties of at least 1,000. We also 
considered the fact that the terrorists would be operating 
illegally and outside a state-run laboratory or weapon program. 
We did not address the possibility of a rogue scientist or 
official from a state program providing agents or their weapons 
from their programs to a terrorist organization, nor did we 
examine the ease or difficulty for states to successfully 
produce these weapons.
    Overall, Mr. Chairman, we found that terrorists trying to 
make chemical or biological weapons would have to overcome a 
number of significant technical challenges to cause mass 
casualties. Some people might be surprised because this 
conflicts with the many suggestions that have been made in the 
media and elsewhere that it is easy to prepare agents in your 
kitchen, your bathtub and your garage.
    Chemical and biological experts and intelligence agency 
officials believe that ease or difficulty for terrorists to 
cause mass casualties with an improvised weapon or device 
depends on the agent selected. Experts from the scientific 
intelligence and law enforcement communities told us that 
terrorists did not need sophisticated knowledge or 
dissemination methods to use toxic industrial chemicals such as 
chlorine. In contrast, terrorists would need a relatively high 
degree of sophistication to successfully cause mass casualties 
with some other chemical and most biological agents. 
Specialized knowledge would be needed to acquire the right 
biological agent or precursor chemicals, process the chemical 
or biological agent, improvise a weapon and disseminate it. 
Throughout the different stages of the process, terrorists 
would run the risk of hurting themselves and being detected and 
would have to overcome these challenges.
    Let me break these down further, Mr. Chairman, and call 
your attention to this chart that is before you. It gives you 
an idea of some of the stages and the challenges that go into 
making these types of weapons.
    Note the cloud in the upper left-hand corner. A terrorist 
would need to possess certain technical skills. Experts in the 
various fields, including those formerly with state-sponsored 
weapons programs, told us that many skills are required to 
successfully research, develop, produce and disseminate weapons 
of this type. For example, knowledge and expertise in the 
fields of physics, meteorology, microbiology and chemistry 
would come into play.
    Also, when dealing with biological weapons, experts agree 
that only those individuals who work on weaponizing agents in a 
state biological warfare program are likely to possess the 
specialized knowledge.
    Next as shown in the top box, a terrorist would need to 
acquire basic chemicals or infectious biological seed cultures. 
Basic chemicals necessary for the production of some chemical 
agents are controlled by the 1993 Chemical Weapons Convention.
    Chemical experts told us that illegal acquisition of large 
quantities of precursor chemicals would raise red flags, and 
most nerve agents like sarin have to be delivered in large 
quantities. The critical exception to this and other challenges 
for making a chemical attack is toxic industrial chemicals. 
Chemicals like chlorine or phosgene are ready available. They 
don't require any mixing. They are dangerous just the way that 
they are.
    A hurdle for terrorists trying to make biological weapons 
is to get sufficiently deadly or infectious seed stocks of the 
bacteria or virus, especially since controls over these stocks 
have improved. In our former biological warfare program the 
United States investigated numerous strains of biological 
warfare agents before finding ones that were highly infectious.
    In the second box, terrorists would need to synthesize 
chemical agents or grow biological agents. For some chemical 
agents, a terrorist must mix the right amounts of different 
types of chemicals together in an appropriate container. 
Biological agents are relatively easy to grow, but a terrorist 
has to be very careful not to contaminate them with other 
bacteria or viruses that might kill or interfere with the 
agents' effects.
    Even if a terrorist goes through this stage, there are more 
stages to complete. As shown in the third box, a terrorist 
would need to process the agents into a form that can be 
effectively delivered. Specialized knowledge is needed because 
some steps in the production process of nerve agents are 
difficult and hazardous. A technical challenge includes 
containing highly toxic gases. For biological agents, a 
terrorist has to make a wet or dry product with the right 
particle size to form a stable aerosol so that the particles 
reach the small air sacs deep in the lungs. And if a terrorist 
is trying to make the dry product, special precautions would 
need to be taken to avoid killing the biological agent in the 
process.
    As depicted in the fourth box, a terrorist would have to 
improvise an agent delivery device to cause mass casualties. 
Even if the chemical agents can be produced successfully, they 
must be released effectively as a vapor or as an aerosol to be 
inhaled.
    Another method for certain chemicals is to spray large 
droplets for skin penetration, and for biological agents a 
terrorist would have to use the right equipment with the right 
speed to disseminate the agent effectively. If the biological 
agent is not stabilized and disseminated with the proper energy 
rate, then the biological agent can lose its ability to cause 
injury.
    Last, in the fifth box, and the remaining cloud, a 
terrorist would have to effectively release the selected agent 
to cause mass casualties. Both chemical and biological agents 
need to maintain their strength during release. This is a 
challenge posed by the very nature of the agents themselves.
    Terrorists must also deal with additional hurdles. For 
example, outdoor delivery of agents can be disrupted by 
environmental and meteorological conditions. If wind conditions 
are too erratic or strong, the agent might dissipate.
    Terrorists risk capture and personal safety in acquiring 
and processing materials, disposing of by-products and 
releasing the agents. Many agents are dangerous to handle. In 
some cases, the lack of an effective vaccine, antibiotic, 
antiviral treatment or antidote poses the same risk to the 
terrorist as it does to the targeted population.
    Let me turn now to the second issue regarding the extent to 
which threat and risk assessments have been done. As you know, 
numerous Federal agencies--and you have made reference to that 
in your remarks--are spending billions of dollars and 
initiating several new programs to prepare for the possibility 
of a terrorist attack. It is not clear that these investments 
are targeted toward the right program solutions in the right 
amounts.
    We have found that the intelligence community has assessed 
the more likely chemical and biological threat agents to be 
used by foreign terrorists, but there is no comparable formal 
assessment that has been done by the FBI for domestic origin 
threats.
    Also, we determined that there is need for a national level 
assessment that would enable the Nation to focus on the more 
likely chemical and biological threats. If done properly, this 
risk assessment would also target our programs and resources 
more effectively and economically.
    In our report we recommended that the Attorney General 
direct the FBI to perform these assessments to help establish 
and prioritize program requirements. The Justice Department 
agreed with us on the need for these assessments, as did the 
Department of Defense and the CIA.
    Mr. Chairman, that concludes my summary remarks. My 
colleagues and I will be pleased to respond to your questions.
    Mr. Shays. Thank you very much.
    [The prepared statement of Mr. Hinton follows:]

    [GRAPHIC] [TIFF OMITTED] T3765.006
    
    [GRAPHIC] [TIFF OMITTED] T3765.007
    
    [GRAPHIC] [TIFF OMITTED] T3765.008
    
    [GRAPHIC] [TIFF OMITTED] T3765.009
    
    [GRAPHIC] [TIFF OMITTED] T3765.010
    
    [GRAPHIC] [TIFF OMITTED] T3765.011
    
    [GRAPHIC] [TIFF OMITTED] T3765.012
    
    [GRAPHIC] [TIFF OMITTED] T3765.013
    
    [GRAPHIC] [TIFF OMITTED] T3765.014
    
    Mr. Shays. I just want to note for the record that Lee 
Terry is here as well.
    I am going to recognize you, Mr. Souder, first, but that is 
after I ask one question. Mr. Hinton, do you believe a nuclear, 
biological or chemical attack will take place in the United 
States sometime in the next 20 years?
    Mr. Hinton. Based on what we have seen in our work, Mr. 
Chairman, we are being advised by the intelligence community 
that the likelihood that this could happen, an attempt of this 
sort, is growing.
    Mr. Shays. Thank you.
    Mr. Souder.
    Mr. Souder. Pardon my voice. I don't have much of one 
today.
    In the bulk of your presentation you were talking about the 
difficulty of terrorists kind of having the ability to execute 
an attack that I believe you said in your opening paragraph, 
defined as at least 1,000 deaths. Does this change if you lower 
that? Could there be less than a mass catastrophe?
    Mr. Hinton. Just going through the process, it is very 
difficult to successfully pull that off--to cause casualties at 
levels of 1,000 or a couple hundred. I think, as we saw in 
Japan not too long ago, it wasn't a quality effort. It did 
affect a small population. That event, even though small, was 
serious. What was larger was probably the psychological impact 
that resuslts from such an incident regardless of the number of 
casualties.
    My answer is, as you look at whether 1,000, several 
hundred, I think the steps that we have talked about, the 
operational and technical parts have to be done in such a way 
as to be effective before you can have that level of casualty.
    Mr. Shays. Would the gentleman just suspend? I am going to 
vote quickly and have you carry on, and just leave with 5 
minutes to go, and then we will reconvene when I return.
    Mr. Souder [presiding]. In the difficulty of delivery 
systems, the knowledge that this requires and so on, would that 
not suggest on the surface that foreign threats are probably 
more serious than domestic threats?
    Mr. Hinton. I think, Mr. Souder, until we see an analysis 
of the various threats, both that have been done by the 
intelligence community and those that we have asked the FBI to 
undertake, and that using that information and going through a 
risk assessment process which isolates scenarios, which might 
have as their base the different types of agents that would be 
involved, to look at the likelihood of these events occurring 
and if they did occur, what would be the criticality of the 
events, I don't know which part of those threats are more 
serious than the other.
    I think this is very important as part of the process that 
governmental agencies that are working this issue need to go 
through. And in doing that and in coming to those solutions it 
gives them a way to manage the most serious risk that they see. 
It might not alleviate all of the risk, but it puts us into a 
position to come up with countermeasures to go after the higher 
order of risks that are out there. I don't think that there is 
any substitute for having good intelligence and contingency 
planning along these lines.
    Mr. Souder. It has been hard to get a handle around the 
different types of threat. By showing the difficulty, it 
narrows it. This is especially true when you are talking about 
a domestic situation and American citizens and trying to 
analyze this without getting into overly classified and high-
risk information. We have had public testimony here that most 
of the foreign threat to American citizens have come from Osama 
bin Laden and his network because they had some of the delivery 
systems, at least in a regional way, and then Japan, the FARC, 
but very few networks have done that.
    When you start to get into domestic, it starts to get 
really hairy. I have talked to Mr. Blitzer a number of times 
about what kinds of groups do you target. Do you say, we have 
had some pro-life protesters protest at clinics; therefore, any 
of them at this time could theoretically do this. What about 
people who are part of the Montana group or whatever, the 
citizen rights groups? And all of a sudden you are speculative.
    How would you start to apply some of what you have here to 
a domestic analysis, because you have raised that? And given 
the type of technical things that you say here, for example, 
would people who have worked at a biological or a chemical lab 
who have been fired or who have been unstable, would you start 
tracking those kinds of people? You are saying that there are 
technical things that are needed and it is not just an 
ideological anger. You need technical people. How do you bring 
that together along with the question of their American 
citizenship?
    Mr. Hinton. One, getting the FBI to be supportive of the 
recommendation that we made to move domestically in this regard 
is a good first step. It starts dealing with the question of 
who/what might be the type of threat that is out there.
    This is evolving. It is not quick and easy, and it is 
something that we constantly have to come back to revisit, and 
update as events around the country change or change overseas.
    I think that a first step, then allows you to identify what 
that threat might be and then start putting that threat along 
with other information from the law enforcement community, the 
intelligence community that we have and other sources together 
to start assessing each of those threats from where they might 
come. Then look upon what is the likelihood that you might have 
an event and come up with countermeasures against various 
dependent scenarios.
    That threat might be multiple things that you have to look 
at, chemical and biological agents being a part of it, as well 
as any threats along conventional lines of using bombs, or 
explosives, which seem to be the more prominent part that we 
see here now in the United States.
    Mr. Souder. Thank you.
    I will yield to Mr. Terry.
    Mr. Terry. A couple of quick questions so we can go vote.
    Just picking up on a couple of your answers in the portion 
of your testimony that I heard--sorry about being late--is 
there a problem at the FBI? Are they dragging their feet on 
this issue? It seems that some of the answers--you are not 
saying it overtly, but is one of the barriers to implementing a 
more cohesive policy involving the FBI; and if you say that the 
FBI needs to become more involved, is there a problem there?
    Mr. Hinton. No, Mr. Terry, I don't want you to think that. 
When we first got into this our thinking was at a much broader 
community level, but as we worked with the intelligence 
community, DOD, HHS, and the others, the FBI came up and said, 
we ought to be the agency that sponsors a national-level risk 
assessment.
    Mr. Terry. Do you agree with that?
    Mr. Hinton. Yes. All of the Federal players felt that we 
should put that responsibility with the FBI.
    Mr. Terry. Why should they be the hub of the spokes?
    Mr. Hinton. They have the lead responsibility in crisis 
events, and they have a pretty good ability to tap into the 
communities out there in terms of different intelligence 
sources and the threats that are out there.
    I don't want you to think, too, that they have been 
inactive in this debate. They have gone through quite a bit of 
research on their own and have come up with broad groupings of 
the different types of threats out there, but we have not 
advanced domestically like I think we have internationally in 
looking at the specific threats that are out there, and that is 
what we were trying to move to, to isolate the specific threats 
that might be reason for concern.
    Mr. Terry. Where are we in the process here?
    Another hint that I interpreted from your answers and your 
statement is that we have a lot of people talking and studying 
and looking at it. Now we need to tie everybody together. That 
has probably been haphazard to date but is probably the first 
step. First of all, you have to identify that there is an issue 
and then a need. The second part is becoming cohesive and tying 
that into a plan.
    Where are we in that process? Do we need to focus 
everybody? Are we to that next phase where we can be more 
comprehensive?
    Mr. Hinton. We are at that stage. We have been looking at 
this for several years, and what we have seen is a growth in 
the Federal expenditures throughout the government to address 
in this whole arena.
    What we have not seen through our work a process to put in 
place the identification of the various threats and an 
assessment process that will allow you to take those threats 
and related scenarios to come up with countermeasures for those 
in some coordinated fashion. That has been the subject of 
several recommendations that we have made. I am pleased that we 
have gotten a response at this point to move in that direction. 
I think it is constructive. I think the more intelligence that 
we gain, the more contingency planning, the process will only 
get better as it goes forward.
    Mr. Terry. One last question. Now developing this next 
phase as you described, the FBI's involvement as being the hub 
here to help us organize focus, become comprehensive, where are 
they in the process of implementing any of these 
recommendations, Nunn-Lugar, Domenici? Where are they in the 
process?
    Mr. Hinton. I think they are in the early beginnings of it.
    On the Nunn-Lugar, we had a recommendation a while back, 
and it was picked up in the 1999 defense authorization 
legislation for them to develop some methodologies and assess 
the possibility of weapons of mass destruction threat against 
several cities. They were given about a year I think from when 
that legislation passed to complete the task. They are not at 
the point of fully executing that yet. They have started 
working the methodologies, and I think they are going to be 
evolving in this area.
    Mr. Terry. Thank you.
    Mr. Hinton. Yes, sir, Mr. Terry.
    Mr. Shays [presiding]. Thank you, Mr. Hinton.
    We made a decision to have this hearing public, and we 
invited DOD and the CIA to come and testify, but their 
preference is to testify in a hearing that would not be open to 
the public and therefore we could get at the issues that we 
can't get into in a public forum like this.
    In the question do you believe that a nuclear or chemical 
or biological attack could happen in the 20 years, your answer 
was that it is appearing more and more likely that we will have 
to deal to some degree with one of those three types of weapons 
of mass destruction.
    Mr. Hinton. Mr. Chairman, I think the keyword here is an 
``attempt'' in the chemical and biological area and that is 
where I would like to have my remarks focused. On the nuclear 
side, I haven't done the research yet to comment on that.
    Mr. Shays. Tell me the difference--terrorists don't play by 
the same rules, so tell me the difference between dealing with 
a rogue nation, a nation that might use one of these three 
weapons of mass destruction and a terrorist organization?
    Mr. Hinton. Well, I think if you look at it from a state 
environment, you have more resources. You probably have access 
to expertise that you need. You might well have a sophisticated 
machine that can move in that direction to do those types of 
things. I guess it is the goals and the intent that they want 
to advance.
    I think also that you have to look at the in objectives. 
And when it comes to a terrorist, the question is, do they have 
the same capacity that a state-sponsored organization might 
have? Would they have the same level of resources and the same 
knowledge and those types of things? Also, you have to look 
into the motives and the objectives which they are trying to 
achieve.
    Mr. Shays. Versus the terrorists--a terrorist has to live 
somewhere, so there has to be some environment that enables 
them to exist and potentially train and so on.
    What is the likelihood that--if we are dealing with foreign 
terrorists, that we would know the country that basically has 
sponsored them or has allowed them to live there?
    Mr. Hinton. We are getting very close to some of the 
concerns that I think the CIA and others raised to you.
    Mr. Shays. Let me put it this way. In most instances, do we 
believe that we would know if a terrorist was sponsored by a 
foreign country?
    Mr. Hinton. I think that the intelligence community would 
probably have indications of that based on their research.
    Mr. Shays. In determining the risks, we asked you to look 
at casualties of over 1,000 or more. If that number were to 
drop to 200 injuries, would your study be all that different?
    Mr. Hinton. No, sir, I don't think it would. Probably to 
have casualties of that magnitude you almost need to go through 
the same process discussed here in terms of coming up with and 
overcoming the challenges that one would have in coming up with 
an agent or a device to cause that magnitude of casualties.
    The events that we saw in Japan not too long ago, the 
casualties of deaths were smaller but a large number were 
injuries, and that was serious. But I think also, looking at 
that incident there is a huge psychological impact that comes 
along when you see events like that.
    But I think in terms of whether I would lower from 1,000 to 
200, I wouldn't see much difference in terms of the technical 
and operational challenges.
    Mr. Shays. When I read your report, I thought in a way--my 
first reaction was that it seemed to minimize the threat to me 
a bit. Then I thought about it more and changed my view a bit.
    Let me say that there was a student before I was a Member 
of Congress who lived in Norwalk, CT and went to Princeton, and 
his assignment was to see if he could go to material in any--in 
some of our libraries, material that would be available and 
construct a nuclear weapon. And he ended up doing that. We are 
going back I think 18 years ago. So the thought now is that one 
doesn't have to go anywhere other than just turn on their 
computer. The ability to make--to know--to have the directions 
on how to make a nuclear or chemical or biological agent is 
pretty much available. So then the issue is do you have the 
technical skills to be able to make--let us just talk chemical 
or biological.
    We have Americans and foreigners who obviously have 
tremendous technical skills. Am I to infer that just because it 
requires--I say just--am I to infer that having the technical 
skill makes it unlikely that a nuclear or biological agent 
won't occur? Or should I make an assumption that there are 
enough people who possess these technical skills that we need 
to be concerned? In other words, I want you to walk me through 
this chart, particularly the side corners, and have you tell me 
what that really means. Start with possess requisite technical 
skills first.
    Mr. Hinton. Well, you need specialized skills in this 
arena. There are a lot of risks. The process gets into 
acquiring, handling, processing, and manufacturing. To 
understand those risks and to deal with them and come up an 
agent that can be weaponized is technically challenging, with 
the exception of toxic industrial chemicals such as chlorine, 
which is already in the commercial market.
    Mr. Shays. One of the basic points in the report was that a 
chemical agent is more likely than biological because a 
chemical agent can be bought in an industrial setting?
    Mr. Hinton. Right. Those such as chlorine and phosgene.
    Mr. Shays. There are literally potentially not just 
thousands of people, but tens of thousands, even hundreds of 
thousands of people who possess the technical skills. We are 
not talking about just a few geniuses around the country.
    Mr. Hinton. That is correct. You are right on that. But 
there is a lot of information that is not publicly available, 
we know, Mr. Chairman, that would be needed to successfully go 
through all of these processes and weaponize an agent.
    Mr. Shays. Let's just take them one at a time.
    First off, the technical skills, we have hundreds of 
thousands of people potentially----
    Mr. Hinton. Right.
    Mr. Shays [continuing]. With those technical skills. You 
realize when we put the whole package together we minimize, 
fortunately, the number. And I realize that in going through a 
process like this, it can help us find out where we need to 
focus our time and attention.
    So I think this is--but I just want to--I don't want us to 
dismiss it by saying that someone needs technical skills as if 
we don't have to be concerned.
    Mr. Hinton. No. I understand where you are going right now. 
It has got to be the people with certain motives. They might be 
individuals or groups. Not everyone who has those technical 
skills are going to want to participate, depending on the 
motives or the skill or the objectives of what the terrorist 
might want to do.
    Mr. Shays. It seems what I am hearing is, in one case, you 
need one kind of technical skill, and then in order to get it 
through to the point at which it becomes a weapon, you've had a 
lot of different people with different skills come into play. 
So, in other words, one person--I guess one of the messages 
that I am getting is a Unabomber may be able to make a bomb, 
but it is less likely that they are going to be able to make a 
weapon of mass destruction, clearly nuclear, but also chemical 
or biological, there is going to be more than one person that 
is going to have to be involved?
    Mr. Hinton. I would say that is probably the case unless 
they have had past experience.
    Mr. Shays. But as I go down this chart, you start out with 
biological or chemical cultures. You have to acquire and 
synthesize, you have to process and then you have to deliver 
the system. They are all going to take different skills.
    Mr. Hinton. Right. As my statement--in the remarks, there 
are different types of skills, from physicists, meteorologists, 
those types of people, you are going to need their technical 
knowledge. From the research that we have done and the people 
that we have spoken to, you are going to have to bring a host 
of those technical skills to bear in this issue.
    Mr. Shays. Which suggests to me that, in many instances, 
they are going to have to have the cooperation of a country 
that is willing to--the more vigilant a country is, the more 
difficult it is going to be for someone to have this kind of 
activity take place in that country. The more friendly that 
country is to a terrorist's efforts, obviously the more likely 
it is going to happen. This is the challenge.
    The bottom line is that we are spending over $10 billion a 
year trying to deal with a chemical or biological threat. One 
danger would be to minimize the likelihood because then that 
gives us a false sense of comfort. Another danger is for us to 
make it more dramatic than it is. But the bottom line is that 
you even felt this way. There are a number of us who feel that 
a nuclear or chemical or biological terrorist attack is--is not 
a question of if, it is a question of where and when and to 
what degree.
    We want to make sure that we are maximizing all of our 
resources, and that is the purpose of your report, to say that 
we are going to have to make choices. I am trying to get a 
feeling for how you begin to compartmentalize this effort and 
begin to know how to do that.
    When you say technical skills, I am struck with the fact 
that is not a significant barrier. There are a lot of people 
with technical skills. The challenge begins when you try to 
synthesize this whole effort and get the people who have those 
skills coming together. And as soon as you get more than one 
person involved, then the phrase on the right side as I look at 
your chart ``avoid detection by authorities,'' becomes more and 
more difficult.
    Could you speak to some personal risk where no vaccines or 
antidotes are available?
    Mr. Hinton. Do you want to take that?
    Ms. Colantonio. Yes. It is almost a catch-22, Mr. Chairman. 
If terrorists were to work with in particular a biological 
weapon and if they were not able to vaccinate themselves, they 
run the risk of hurting themselves.
    But if we want to step back and go through the process of 
handling the biological agent, whether it be a virus or a 
bacteria, and they are growing it and they are processing it 
and working with it and they are working with specialized 
equipment and specialized types of ingredients that they need 
to use to get to a liquid or to a dry form, they run the risk 
of perhaps inhaling the agent themselves. If the terrorists 
don't have the proper vaccines or if there are not proper 
antidotes available, they could possibly harm themselves, 
infect themselves or die.
    Let me give you an example. When you work with a dry 
biological agent and you have rubber gloves on, a dry 
biological agent tends to stick to your gloves. That poses a 
risk. That is a concrete example of a risk factor for a 
terrorist. So you have the biological agent on your gloves. It 
is sticking to your gloves. And so if you have somebody pull 
the gloves off for you, that individual can be infected perhaps 
or if you happen to inhale this because we know you--the 
process of inhaling any type of biological weapon and in some 
cases chemical weapons one can become ill.
    Mr. Shays. Describe to me the differences between the 
challenges for the terrorist with a chemical versus biological?
    Ms. Colantonio. For example, for chemical agents, there is 
a process where these agents are corrosive. There are nasty by-
products that have to be dealt with and disposed of. You have 
to, for example, get the right temperatures for the materials. 
So you have to be careful when heating or cooling. You have to 
handle highly toxic gases.
    With biological agents, when you are dealing with a wet 
agent, you are growing your media, and you have to, from your 
wet media, get your actual live bacteria or virus out of your 
growth material so you have to filter out the by-product from 
your growth. If you were to stop there, then you have to get 
this into containers or store it. So, again, there are by-
products that you have to dispose of.
    If you want to go from a liquid biological agent to a dry 
biological agent, you have to go through a drying process and 
you've some risks involved there in terms of just handling the 
material, at all stages carefully.
    You also have to--for example, with biological agents have 
to have the right respiratory equipment, like a filter that you 
are breathing with, and you have to make sure that you are 
secure, you have a secure hood that won't let these particles 
into your mouth, nose, or eyes.
    Mr. Hinton. To bring that back to your question about the 
skills: the skills that you need to weaponize, whether it be 
chemical or biological, are not as plentiful as we might think. 
I think that is important from the perspective we were 
discussing a little while ago about the skills. It is all the 
delicate parts that Deborah was bringing out to you there. As 
you move through that process in the various stages, the 
weaponization is a real critical part of this, for which the 
skill base may not be as plentiful.
    Mr. Shays. The chemical weapon convention hasn't been fully 
adopted and defined, correct?
    Mr. Hinton. That's correct. Not everybody has signed up to 
it.
    Mr. Shays. How many chemical companies are subject to 
inspection under the CWC, the Chemical Weapons Convention?
    Mr. Hinton. I don't have that, Mr. Chairman. We can get 
that and provide it for the record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T3765.015
    
    Mr. Shays. If, say, 1,000 of the chemical companies who are 
subject to inspection, what are the chances of a sham company 
receiving a chemical weapon, precursor chemicals being 
inspected?
    Mr. Hinton. I don't have a good answer. We have not looked 
at that issue, Mr. Chairman.
    Mr. Shays. When we were in Geneva, that was one of the 
questions that we were trying to get a handle on. You have a 
certain group that play by the rules, but we just wonder if 
others can get the precursors that ultimately lead to the 
weapon.
    In the chart that you gave us, you talk about the stages 
and then the obstacles. One of the obstacles I note that is not 
there is money. How come?
    Mr. Hinton. We could add that. There is another one that is 
not there either, testing. Money and testing are two that are 
on our minds. What I was trying to do was walk you through the 
operational aspects.
    Mr. Shays. To make a better chart you can add those two.
    Mr. Hinton. We will.
    Mr. Shays. Are there any others?
    Mr. Hinton. Money is an issue. Also testing, and testing in 
the sense that once you have something, you want to make sure 
that it works. And the only way you can find that out 
beforehand is to test it, but there are risks associated with 
that.
    The other issue, too, while I think the chart is rich in 
the sense of the stages and the challenges, is the time that is 
involved in this process, too.
    Mr. Shays. I note that we are joined by our ranking member. 
I will continue to allow you an opportunity to catch up.
    You mentioned in your testimony the smallpox virus is 
available only in the United States of America and Russia. 
Could it have been proliferated beyond Russia and how dangerous 
is smallpox compared to anthrax?
    Ms. D'Agostino. Based on our review throughout the entire 
year that----
    Mr. Shays. Could you lower your mic a little bit?
    Ms. D'Agostino. Sorry.
    Mr. Shays. That is all right.
    Ms. D'Agostino. Based on our reviews, there was no credible 
evidence available that the smallpox virus has been 
proliferated to other countries or individuals.
    What we don't know about is the level of security 
specifically on the smallpox cultures in Russia. We don't have 
really good, sound, corroborated information about that. We 
also don't know whether or not terrorists really are interested 
in getting smallpox and using it. So we are kind of short on 
answers and other pertinent questions that you might want to 
ask before you undertake a very large program.
    In terms of smallpox, I guess everybody has billed it as a 
low probability but high consequence attack scenario, and I 
think we would agree with that. But, unlike anthrax, smallpox 
is very contagious. And it is a severe illness with an 
estimated fatality rate of about 30 percent, which is very low 
compared to a successful inhalation anthrax attack which can 
lead to an 80 to 90 percent lethality rate.
    The vaccinations, obviously, have not been given for 
smallpox for many years, partly because the disease has been 
eradicated. It is just not clear to us at this time that 
smallpox is a very attractive biological weapon for a terrorist 
based on what we have seen.
    Mr. Shays. Right. Thank you.
    Could you please comment on Mr. Hamre's, the Deputy 
Secretary of Defense, recent statement before the House Armed 
Services Committee that, one, North Korea has weaponized 
anthrax; and, two, it is easy to weaponize biological warfare 
agents.
    Mr. Hinton. We haven't seen the evidence to support Mr. 
Hamre's statement that North Korea has weaponized. But it is 
something that we would be happy to look into for you, Mr. 
Chairman. Based on the evidence that we now have, we have a 
disconnect.
    On the second issue--easy to weaponize, that, too, is 
different from the information that we have, and, as I have 
discussed through the process, it is another area that I need 
to inquire about so that we can understand the basis for those 
statements.
    Mr. Shays. Thank you.
    Let me ask Mr. Blagojevich if he has questions, and then I 
will just come back for a few more questions.
    Mr. Blagojevich. Thank you.
    Mr. Hinton, you evidently had made the point just moments 
ago that the threat of a nuclear or biological attack has been 
overstated and not nearly as threatening as some of the popular 
literature lately might suggest. Can you tell us what you are 
talking about when you say that and who is overstating that 
threat and how they are doing it?
    Mr. Hinton. My comment, Congressman, was more to the point 
that, based on the information that we have received from the 
work that we have done through the intelligence community and 
all, that the data and the evidence would suggest that there 
might be an attempt down the road in the chemical and 
biological area. I have not had any review around the nuclear 
area at this point, but it might be an attempt somewhere down 
the road.
    Mr. Blagojevich. Is it your conclusion that some of the 
discussions in the public domain regarding a threat of a 
chemical or biological terrorist attack has been overstated? 
And if that is in fact your conclusion, can you give us 
examples of where and who is doing it?
    Mr. Hinton. Some overstatement has been made regarding how 
to go about acquiring, manufacturing, weaponizing an agent, and 
it has been made out to be easier than the evidence through our 
work would suggest. We have discussed the various operational 
and technical challenges to do this and--so it contradicts some 
of what has been in the press and the media about how easy it 
is to do.
    Mr. Blagojevich. Your report states that potential 
terrorist attacks carried out, and I am quoting from your 
report, ``without access to state-run laboratories or weapons 
programs.'' Now, limiting the qualifying--the discussion on 
potential terrorist attacks by that statement, does that 
arbitrarily restrict your analysis?
    Ms. D'Agostino. We don't think that it arbitrarily 
restricts our analysis. What it did was help define the 
parameters of our analysis, and we don't see it as necessarily 
a limiting factor.
    The question that you raised by that scope definition is 
whether or not a state actor would be willing to provide a 
terrorist group or organization with their chemical or 
biological weapons. That is a question that the intelligence 
community has looked at, and we can't discuss their position on 
that matter in this forum. But it has been looked at, and they 
have come to conclusions and judgments about that very matter.
    I think that in comment on our report, the Department of 
Health and Human Services raised that issue, and we did say 
that could be part of a risk assessment. But there are some 
judgments out there on the part of the community about that 
question. So you could factor that into the assessment.
    Mr. Blagojevich. Some of the language in the report also 
indicates receiving chemical or biological agents or weapons 
from such countries, that being a statement in your report that 
terrorists would not be--your conclusion is predicated on the 
thought that terrorists would not have access to some of the 
material from certain countries that may have it; is that true? 
Is that essentially a fair statement of your report?
    Mr. Hinton. Yes.
    Mr. Blagojevich. OK. I am asking these questions in the 
context of the fluidity of the material that we are talking 
about and the experts that are presently leaving the former 
Soviet Union. Russia has acknowledged--is acknowledged as the 
world's largest stockpile of chemical agents, including 40,000 
metric tons of chemical agents. It included various delivery 
systems, such as artillery aerial bombs, rockets and missiles. 
In 1992, Boris Yeltsin revealed that the Soviet Union conducted 
its biological warfare program in violation of the 1972 
Biological Weapons Convention.
    My question is: With all of this information, do you 
believe Soviet decentralization, the process going on now in 
the former Soviet Union with all of the talk of criminal 
syndicates and so forth, has this posed a significant concern 
with regard to the flight of Russian scientists and materials?
    Ms. Colantonio. Congressman, I think the one thing that we 
have to remember is that if the chemical and biological agents 
are stockpiled, in order to be effective and cause the mass 
casualties, they have to be released effectively, be 
disseminated, and be weaponized.
    Our work--as Mr. Hinton has discussed earlier, there are 
certain steps that you have to go through, and what we found in 
our work is that as agents sit on the shelf, they possibly 
could lose some of their stability and strength.
    Now, in terms of rogue or errant former Soviet Union 
scientists passing out information, we do not--there is no 
credible evidence that suggests that is going on. In fact, 
there was a senior fellow at the University of Maryland who did 
some investigation on the Aum Shinrikyo group, and it was 
suggested that the Aum had contacted a former Soviet Union 
scientist to get his expertise, and it just appeared in the 
media as if the scientist provided the Aum the information.
    Through this investigation, it was suggested that the Aum 
wasn't able to get any kind of technical information.
    Mr. Blagojevich. The conclusions that some of you have 
reached in terms of the threat of terrorism, did it contemplate 
a terrorist organization that might purchase chemical agents or 
a delivery system from a former Soviet state, or was that 
consideration outside the parameters of your analysis and the 
conclusions that you ultimately reached?
    Ms. Colantonio. Congressman, that was outside our 
parameters. What we wanted to look at was whether individuals, 
whether they are defined as terrorists or religious sects or 
cult groups, whether these individuals or groups of people can 
actually perform the stages, OK, and do the science and 
actually go from a growth media or a chemical to actually 
effectively weaponize and release.
    Mr. Blagojevich. So the concentration was on producing and 
weaponizing the various agents, that was the concentration of 
your study?
    Ms. D'Agostino. Right, outside of the state-run 
laboratories where you would have a lot of resources marshalled 
around solving the types of problems in getting an effective 
biological or chemical weapon.
    Mr. Blagojevich. Having said that, is it fair to assume on 
my part that you have excluded the possibility that this 
technology could be stolen by a terrorist organization from a 
foreign state? That is excluded from the analysis?
    Ms. D'Agostino. It is excluded from our analysis, but we 
are not ruling out the possibility. We did not weigh the 
likelihood or the risk of that occurring.
    Ms. Colantonio. May I add that, even if you have the 
technology, you have to have the ``smarts'' in order to 
weaponize, to disseminate, OK, a biological or chemical agent.
    For example, with a biological agent, the best way to cause 
casualties is to aerosolize the agent, and as Mr. Hinton 
mentioned earlier in his remarks--you have to use the proper 
equipment with the proper rates or speed and use of energy in 
order to do this.
    Not only that, some of the other clouds come into play in 
terms of what a terrorist has to do, for example under the 
right weather conditions.
    Mr. Blagojevich. In closing here, let me throw out one 
hypothetical. Iran has some money. They cultivate a Russian 
scientist who needs money and has expertise in chemical and 
biological matters. As part of a terrorist organization funded 
by Iran, they have this person produce weaponized various 
agents. They are prepared to steal products if necessary. That 
kind of a hypothetical was not considered in terms of the 
analysis that you are providing; and if in fact I am right, 
then doesn't this undercut your conclusion that the threat has 
been overstated by not considering all aspects of this threat?
    Mr. Hinton. The specifics of that were not addressed as 
part of this. It doesn't rule it out. I don't think that it 
undercuts our conclusions, that to go through the entire 
process that we have laid out and discussed this morning, that 
it is highly dependent on the agent--whether it is a chemical 
or biological agent that is chosen. It is not easy to do. It is 
a challenge, and it is something that the intelligence 
community looking overseas and the FBI looking domestically has 
got to stay focused on. And I think that process is moving 
right now toward assessing the various hypothetical scenarios 
that we are talking about.
    Mr. Blagojevich. Thank you.
    Mr. Shays. You are basically making an interesting point to 
me that all terrorists aren't the same, and I am stuck with the 
fact that we are trying to develop a rational approach, which 
is something that I tried to allude to in my statement, and we 
are dealing in many cases with irrational terrorists.
    We are going to have some interesting time in our next 
panel going through this, but Raymond Zilinskas says, on page 
12, kind of making reference to this, the last full paragraph, 
``This problem may be illustrated by referring to the 
microbiology technician Larry Wayne Harris. During an interview 
conducted in September, 1999, by a German reporter, Harris was 
asked whether he would use biological weapons. He replied, 'If 
God tells me to do it, I will.''' And then he goes on to say 
that no risk assessor would be in a position to determine if 
and when God gives Harris, or others of his ilk, the requisite 
command.
    I think it is a cautionary word.
    Would you describe how you envision a national threat and 
risk management could be conducted? That is kind of a big 
question. Maybe you can just kind of address it.
    Mr. Hinton. Sure, Mr. Chairman, and I think our report does 
a pretty good job of laying that out and how we envision that 
working. Basically, the concept is that you would take all of 
the available threat assessments that have been done throughout 
the intelligence communities, both internationally and those 
that we would have domestically through the FBI, that they have 
agreed to do in response to our recommendation. This is a 
starting point for the process of doing a risk assessment. And 
we would think that then you would bring in a team of 
multidisciplinary folks, from the law enforcement community, 
from the science community and others, to weigh in on this, 
particularly terrorism experts, that get at the point that you 
just raised--to help sort through what are the likely threat 
scenarios; what agents might be involved in those threat 
scenarios and think through the likelihood of those events 
occurring, the in-severity, if they did occur--what could 
really happen and then begin to pose countermeasures. That 
would begin to lay out a process by which you could decide on 
the risks at hand and what you want to do to mitigate those 
risks.
    I don't think that you are going to rule risk out totally, 
or completely. I think it is a process that is going to come 
back. You are going to have to revisit it as more data and 
information are brought to bear. You are going to have to go 
back and review those assessments that you have done.
    I think the FBI and the Justice Department's response to 
our report furthers the process by which the government is 
approaching this.
    The foreign-origin threats, are being handled through the 
intelligence community. What was missing from the picture in 
the threat assessment was the domestic piece. This is a step to 
move that process forward. Now we have got the FBI that is 
going to sponsor the risk assessment to look domestically. So I 
think the process is evolving, and I think what we have got to 
see now is what comes out of the process once they go through 
the analysis we have recommended.
    Mr. Shays. How will this type of assessment help us focus 
resources better?
    Mr. Hinton. When you see the likely scenarios, and what are 
likely to be involved in those scenarios, it will help make 
resource decisions. There might be some that you will rule out 
immediately that you don't move forward on or invest in. For 
example, where smallpox might fall in the scenario development 
could be used to gauge whether or not we want to be making the 
investments in the national pharmaceutical stockpile and 
vaccines that HHS is moving toward. But I think it would give 
you an affirmation if it is or what is in line with the 
priority threats the Nation may face.
    We know from some of our past work looking at that issue as 
it involved HHS is that some of the threats that were on its 
list were not consistent with the threats that were on the 
intelligence community's list.
    Mr. Shays. Interesting.
    Have you looked at the possibility of terrorists just 
taking over a nuclear plant, electrical generating plant and 
blowing it up?
    Ms. D'Agostino. The DOE has focused on that scenario for 
many, many years and has put a great deal of resources to that 
problem; it has used risk assessment in its process as well.
    Mr. Shays. I am struck by the fact that when we look at 
risk, it is really looking at the hazard versus times the 
exposure. It is really the likelihood of an event.
    But I also--I have a hard time separating or ignoring 
consequence. So even if something was not likely to occur but 
the consequence was so horrific, then I think that we need to 
put resources into it even though the likelihood is small. What 
becomes difficult is that I can think of a lot of very large 
consequences that could take place.
    Mr. Hinton. I think one part of the process, Mr. Chairman, 
would give you as decisionmakers and policymakers the various 
scenarios that are at crosshairs so that those judgments can be 
made. Right now, we don't have that laid out before us, and I 
think to get that type of a process working would enable that 
information to come forward so that Congress, the executive 
branch, can make informed judgments in this area.
    Mr. Shays. I am going to conclude. I just happen to accept 
the fact that you need a process, but it seems to me that 
process has got to be very flexible, and it constantly has to 
be updated and analyzed because the process could really give 
us a false sense of comfort when we are totally ignoring 
something, and it seems to me that you have to have the 
irrational be part of that process. What is someone who is 
irrational going to do? If someone is willing to die in the 
process--we make an assumption that as long as--they wouldn't 
do this because they would die; and that is not----
    Mr. Hinton. We would not disagree with your view on that, 
Mr. Chairman. In fact, I think one aspect of this is having 
hearings like you are holding is to get more discussions going 
about this and find out what is coming out of the process that 
is now taking place so that you can raise whether or not all of 
those types of scenarios have been considered as part of that 
process. I think that is a valid question.
    Mr. Shays. Thank you very much. Your report is a helpful 
contributor to our--to those of us in Congress and in the 
administration, for those trying to sort this issue out. Thank 
you very much. I always appreciate the work of your people. 
They make you look good.
    We call the next panel, Brian M. Jenkins, senior adviser to 
the president, RAND; John V. Parachini, senior associate, 
Center for Nonproliferation Studies, Monterey Institute of 
International Studies; Dr. Raymond Zilinskas, senior scientist 
in residence, Biological and Toxin Arms Control, Monterey 
Institute of International Studies.
    [Witnesses sworn.]
    Mr. Shays. Note for the record that all three have 
responded in the affirmative.
    We will go right down the line starting with you, Mr. 
Jenkins.

     STATEMENTS OF BRIAN M. JENKINS, SENIOR ADVISOR TO THE 
 PRESIDENT, RAND; JOHN V. PARACHINI, SENIOR ASSOCIATE, CENTER 
     FOR NONPROLIFERATION STUDIES, MONTERREY INSTITUTE OF 
INTERNATIONAL STUDIES; AND RAYMOND ZILINSKAS, SENIOR SCIENTIST 
   IN RESIDENCE, BIOLOGICAL AND TOXIN ARMS CONTROL, MONTEREY 
               INSTITUTE OF INTERNATIONAL STUDIES

    Mr. Jenkins. Thank you, Mr. Chairman, and Mr. Blagojevich. 
Thank you very much for inviting me to participate in these 
important discussions.
    I have been given a number of opportunities to testify 
before Congress on the topic of terrorism, the first time more 
than 25 years ago when I thought I knew a hell of a lot more 
than I know today.
    I have submitted a written statement summarizing my views 
on the threat of whether a terrorist might use chemical or 
biological weapons. Let me just underline a few of those 
points. In doing so, I want to make it clear that, although I 
am an adviser to the president of the RAND Corp., my comments 
this morning are entirely my own and do not reflect those of 
the RAND Corp. or any of its sponsors.
    The possibility that terrorists might resort to chemical or 
biological agents is not a new concern. People have been 
writing about this for several decades. That it is only a 
matter of time before terrorists use such weapons is a 
relatively new idea which has become kind of a new orthodoxy. 
What has brought about this change from something that was 
considered an exotic possibility years ago to the inevitability 
that we see it today?
    There are several developments that give us cause for 
concern. The growth of organized crime and corruption in Russia 
raise concerns about the security of its arsenal. While we have 
no direct evidence that chemical or biological substances have 
been stolen from or sold by corrupt government officials in 
Russia, we have ample examples of other weapons being sold 
through criminal organizations of strategic materials being 
stolen, and even small quantities of nuclear material being 
stolen. So there is some cause for concern.
    Also, a number of America's foes and potential foes are 
conducting research on weapons of mass destruction. Several 
were mentioned in the earlier discussion this morning.
    Another factor is that today's terrorists seem more 
interested in running up high body counts than in advancing 
political agendas. In part this is a consequence of the change 
in motivations of terrorists, as we move away from ideological 
motivated terrorism and into the realm of terrorism that is 
inspired by someone's vision of God.
    The nerve gas attack in Tokyo subways may yet inspire 
repetition. Even the fact that we are having these public 
discussions may alter the environment somewhat. Again, there 
are reasons for concern.
    At the same time, we cannot conclude that a catastrophic 
terrorist attack involving chemical or biological weapons is 
inevitable. The historical analysis provides no basis for 
forecasting such incidents. There is no inexorable progression 
from truck bombs to weapons of mass destruction. In the more 
than 4 years since the Tokyo attack, no group has attempted to 
do anything like it; that is significant when we look at past 
terrorist and criminal innovations: hijackings, political 
kidnappings, malicious product tampering--those were 
innovations that were promptly imitated.
    But even if it is correct, this assessment offers no 
comfort because every tentative conclusion that one can offer 
must be followed by the necessary caveat. Indeed, predictions 
call for the gift of prophecy. I don't think that we can do 
well in the realm of predicting with any degree of confidence 
what certainly will or will not happen, I know that causes a 
certain amount of frustration on the part of those such as 
yourselves who have to make decisions regarding how much 
resources should be devoted to the issue and how to best 
allocate those resources. We are trying to make the uncertainty 
go away; it is very, very difficult to do that.
    About the best we can do is an assessment of comparative 
likelihoods. We can say with a degree of confidence that 
hoaxes, which already have become a problem, will continue to 
be a problem. We can say that limited attacks seem more likely 
than large-scale attacks. We can say that crude dispersal 
techniques in contained environments are more likely than 
poisoning cities.
    But I would echo the report prepared by the GAO that we do 
need a more comprehensive and in some cases a more rigorous 
analysis, not to validate the threat or dismiss the threat. The 
issue is not whether we can say ``we don't have to worry about 
it,'' or ``it is imminent'' and set off national panic.
    But if we are going to prepare at all, we need to have some 
rational basis for allocating resources. You mentioned the 
figure $10 billion. Somebody decided on the basis of something 
that $10 billion is the right amount. How should we best 
allocate those resources? Should we spend another $10 billion? 
Or is even that not enough to spend in the years that come? A 
high degree of uncertainty will remain. That is the reality 
upon which we are going to have to make these decisions. 
Therefore we might try to compensate not only by trying to 
reduce the uncertainty but also by adopting a strategy that 
takes into account that uncertainty.
    First, we want to have a comprehensive analysis. That is 
not a finite task. That requirement is going to continue as we 
gain more information, as the threat evolves, as our analysis 
becomes more sophisticated.
    No. 2, we can't wait for the results of the analysis; we 
have to continue to prepare. We have to be willing to refine 
our efforts to prepare as we learn more and refine our 
analysis. We are going to have to be flexible whatever we do.
    Third, we might want to look for opportunities to create 
capabilities that will have utility even if no terrorist attack 
occurs. For example, increasing our capability to respond to 
emergencies; improving our ability to detect, identify and 
treat infectious diseases; creating a more muscular public 
health service; improving measures to ensure food safety are 
some of the things that we may want to explore. Even if it is 
done in the context of terrorism, we nonetheless device public 
health benefits.
    There is a final issue that we often ignore, and that is 
terrorism always consists of two components. One is the actual 
event or set of events that terrorists carry out. The second is 
the much broader psychological effects of those terrorist 
incidents.
    Even if a terrorist attack involving a biological or 
chemical agent were to kill only a small number of people, as 
in Tokyo, instead of the tens of thousands predicted in one of 
the recently publicized fictional scenarios, nonetheless if we 
did not communicate well, it could provoke national hysteria. 
This is scary stuff.
    Therefore, we need to plan our communications, educate the 
public in advance. We need to create a cadre of people who will 
provide practical advice and act as a barrier against the 
misinformation and rumors that will inevitably occur. That 
requires legislative initiatives, legislative support; and, 
should something happen, requires that each of you as Members 
of Congress act as calm, informed communicators. Thank you.
    Mr. Shays. I was reminded while you were speaking, I 
represent Fairfield, and in the late 1950's the person who 
built my house found that it was more lucrative for him to 
build the shelters for a nuclear attack and so we had 
throughout Fairfield County people building these shelters. 
This was a guy who was making a good amount of money on homes, 
but he found it more advantageous to build shelters.
    [The prepared statement of Mr. Jenkins follows:]

    [GRAPHIC] [TIFF OMITTED] T3765.016
    
    [GRAPHIC] [TIFF OMITTED] T3765.017
    
    [GRAPHIC] [TIFF OMITTED] T3765.018
    
    [GRAPHIC] [TIFF OMITTED] T3765.019
    
    [GRAPHIC] [TIFF OMITTED] T3765.020
    
    [GRAPHIC] [TIFF OMITTED] T3765.021
    
    Mr. Shays. Mr. Parachini.
    Mr. Parachini. Thank you, Mr. Chairman, for inviting me to 
this hearing.
    I think now is a very important time to do reevaluation of 
what we see as the threat of chemical and biological weapons 
terrorism. There were a number of events that really spun the 
country up to look at this very carefully, first being the 
World Trade Center bombing, then the bombing on the Tokyo 
subway, and the Oklahoma City bombing. And then there were a 
series of hearings in the Senate chaired by Senators Roth and 
Nunn in which Senator Lugar also participated that are 
entitled, Global Proliferation of Weapons of Mass Destruction, 
and these hearings drew a lot of attention to the events in 
those cases.
    I think at this point the threat is overstated, and so now 
is a good time to reevaluate it, and so I commend you for doing 
that at this time.
    The GAO's general call for a comprehensive threat 
assessment I think is a good thing to do, although you have to 
recognize that within the intelligence community and within the 
FBI there are different methodologies that they employ to 
actually do the threat assessments, so you have to figure out 
how to marry those different methodologies. Law enforcement 
functions and intelligence functions are different, so you have 
to figure out some way to fit those together and not take away 
the beauty that those different approaches also bring. But 
clearly an important part of the assessment has to be a 
multidisciplinary effort.
    Most of how the threat has been evaluated in this country 
in the last 4 years has been on vulnerability. We are 
potentially an infinitely vulnerable society. There are a lot 
of different components. Vulnerability is certainly a part of 
it. Technological ease of acquiring and assembling these 
weapons is part of it.
    That is not the only part. The part that has not been 
looked at adequately and has not been discussed in public 
hearings--and I commend you for trying to do this now--is to 
look at the behavioral patterns of terrorists and their 
motivations. What exactly has been the past cases where 
terrorists have done this in the few instances where this has 
actually occurred?
    If I can call upon the first chart--I am going to put up 
two charts to sort of help make this point. Actually, the other 
one.
    At the Monterey Institute of International Studies we are 
conducting a series of both qualitative and quantitative 
assessments of terrorist incidents, and we have just concluded 
a series of qualitative case studies where we have asked the 
same questions. This lists a series of cases which we looked at 
in the first volume that will come out in January 2000, and it 
is a series of cases from 1946 until 1995. We had a number of 
authors who were experts on these groups or in these regions of 
the world. They applied the same questions. We then brought 
back all of the data and tried to compare across the cases to 
see what were common patterns. This is valuable to help 
establish a bench line. It is not necessarily a clear guide to 
the future, but it does create a benchmark for what we are 
looking at.
    At the moment, the worst-case scenarios are being spun out 
by people mainly who have a lot of expertise in our own weapons 
programs, or evaluating the weapons programs of foreign 
countries, not subnational groups or terrorists. That doesn't 
mean that their expertise is not relevant, but it means that 
their expertise captures one part of the problem.
    The other part of the problem is you have to actually look 
at groups and what they have done. So that is what we tried to 
do using open source information, interviewing the terrorists, 
interviewing people who know them, interviewing arresting 
officials and prosecuting attorneys and reading all of the 
statements that the terrorists have articulated, trying to see 
what were the agents that they used and how did they get them 
and how were they apprehended.
    Based on this work and another set of case studies that we 
will be conducting in 1999 and the year 2000, we are beginning 
to get some sense of a profile of what some of the groups are 
that will use weapons of mass destruction, principally chemical 
and biological weapons, and we are beginning to understand what 
are some of their patterns of behavior.
    Some of the findings are that, in contrast to what we hear 
in popular discussion, that this is a very complex task. Even 
very smart people have difficulty doing it. And as you yourself 
noted, there is a lot of technical expertise in the United 
States. Why isn't this happening more often? We should ask 
ourselves that question.
    One, it is not that easy. So it is a technologically 
complex thing. Two, it is sort of surprising how infrequent it 
is. Three, the people who do want to use these types of agents 
for their particular purposes tend to be small groups or 
individuals. Those are very hard for law enforcement people to 
penetrate--very hard.
    And, finally, the people who are most motivated toward 
these attacks are people who we identify with the following 
characteristics. They have charismatic leadership. They have no 
outside constituencies so they are internally focused. They 
don't have the outside constraints that most of us have in the 
socialization process. They have an apocalyptic view of the 
world. They are often splinter--individual splinter groups or 
individuals. They have a sense of paranoia that tends to push 
them to want to use these when they feel that law enforcement 
people are closing down on them. And they have a sense of 
grandiosity. They are above the restraints that most of us feel 
and that they may be impervious to the effects of their action.
    The beauty, fortunately, and I am not clear on how long we 
can rely upon this, but the beauty is these are unusual 
characteristics. These are not the political terrorist groups 
that we faced in the 1960's, 1970's and early 1980's. These 
tend to be splinter groups or loners. They tend to be 
religiously motivated groups or people who are somewhat 
unstable, so there are self-limiting characteristics in who 
these groups are. They tend to envision ways to perpetrate 
their attacks that are not realistic. They tend to have visions 
that are very difficult to carry out, so there is an upside 
story when you begin profile who has done this in the past.
    On the next chart you can see how we have tried to compare 
across the various cases what some of these patterns are. The 
beauty of identifying these patterns is it begins to focus us 
on what agents are really relevant. It doesn't mean that those 
will be the agents in the future, but at least we know what has 
been used in the past. By looking at the incidence, it gives us 
some sense of the magnitude of what did happen in the past, how 
many casualties were there. You have asked this question 
several times. This is not an arbitrary number. This is a 
number based on looking at the historical record.
    One of the things that you do find is that industrial 
chemicals, as was mentioned, and fairly common pathogens are 
more likely. So are we scaling our response to deal with the 
more likely things or are we scaling to deal with national 
strikes with very unusual agents that were in foreign 
countries' weapons programs that are not very likely?
    Let me finally comment on the report in a general sense as 
an observer and a regular reviewer, both of hearings that you 
convene and of reports that the General Accounting Office 
prepares.
    Although I think a general call for comprehensive 
assessment is valuable, I was struck when reviewing the report 
how caveated it was in many ways. While I recognize that there 
is a beauty to that reiterative process between the GAO and the 
various agencies, at some point you have to begin to worry 
about when does it become a negotiated product. And I think 
Congress, to perform its proper oversight role, wants as crisp 
and as hard-edged reports as possible, even if it makes them 
unpopular. This issue is too important to get sort of a 
negotiated product. In the end, you want clear statements and 
judgments. People should be held accountable for their 
judgments.
    That is why we would have tried to ground our work in the 
historical record, and we recognize it is a historical record 
and not a projection for the future. We wanted to have some 
benchmark for our work and how we might project into the 
future.
    Mr. Shays. Thank you.
    [The prepared statement of Mr. Parachini follows:]

    [GRAPHIC] [TIFF OMITTED] T3765.022
    
    [GRAPHIC] [TIFF OMITTED] T3765.023
    
    [GRAPHIC] [TIFF OMITTED] T3765.024
    
    [GRAPHIC] [TIFF OMITTED] T3765.025
    
    [GRAPHIC] [TIFF OMITTED] T3765.026
    
    [GRAPHIC] [TIFF OMITTED] T3765.027
    
    [GRAPHIC] [TIFF OMITTED] T3765.028
    
    [GRAPHIC] [TIFF OMITTED] T3765.029
    
    [GRAPHIC] [TIFF OMITTED] T3765.030
    
    [GRAPHIC] [TIFF OMITTED] T3765.031
    
    [GRAPHIC] [TIFF OMITTED] T3765.032
    
    [GRAPHIC] [TIFF OMITTED] T3765.033
    
    [GRAPHIC] [TIFF OMITTED] T3765.034
    
    [GRAPHIC] [TIFF OMITTED] T3765.035
    
    [GRAPHIC] [TIFF OMITTED] T3765.036
    
    [GRAPHIC] [TIFF OMITTED] T3765.037
    
    [GRAPHIC] [TIFF OMITTED] T3765.038
    
    [GRAPHIC] [TIFF OMITTED] T3765.039
    
    [GRAPHIC] [TIFF OMITTED] T3765.040
    
    [GRAPHIC] [TIFF OMITTED] T3765.041
    
    [GRAPHIC] [TIFF OMITTED] T3765.042
    
    [GRAPHIC] [TIFF OMITTED] T3765.043
    
    [GRAPHIC] [TIFF OMITTED] T3765.044
    
    [GRAPHIC] [TIFF OMITTED] T3765.045
    
    [GRAPHIC] [TIFF OMITTED] T3765.046
    
    Mr. Shays. Mr. Zilinskas, it is wonderful to have you here.
    Mr. Zilinskas. Thank you, Mr. Chairman. This is a 
thoroughly enjoyable opportunity.
    My written presentation has four parts. I will skip over my 
background. I will go directly into the preliminary findings of 
a project that I am doing with the National Defense University, 
then I will talk a bit about the GAO report, and I will 
conclude with some thoughts on what might be done as far as 
meeting the biological threat that faces us all.
    As to the project that I am doing in collaboration with 
National Defense University, we are trying to assess how the 
advanced biotechnologies might be fed into projects to develop 
biological weapons; our timeframe is the next 5 years. This is 
a pretty unique project because nobody else has tried to 
objectively assess what genetic engineering can do for 
weaponization of agents.
    Our approach is to assemble 16 of some of the foremost 
scientists in the United States. They include virologists, 
microbiologists, geneticists, and others. We have met for 2 
days as a focus group. The report of this focus group meeting 
and the analysis of the conclusions will be published at the 
beginning of the year 2000, but I can tell you a bit about the 
findings with the caveat that they are my interpretations on 
what has happened so far. To reiterate the report is not 
finished, and it will contain the official word of the focus 
group proceedings.
    In the main, we find that the advanced biotechnologies are 
not likely to be used, and there are two reasons for that. 
First, there is something called pleomorphic effects when you 
genetically engineer an organism. These are effects that 
manifest themselves as undesirable characteristics. So, for 
example, if you genetically engineer a bacterium to become 
antibiotic resistant, it might also show other effects that 
will make it less useful a weapon agent.
    So what happens, and this has happened many times in 
industry, is that the developer is able to successfully do what 
he wants to do, but then ends up with an organism that is less 
virulent or less resistant to environmental factors. So then 
the developer has to go through another cycle of research and 
development, and then he might end up with something else that 
is undesirable.
    So our feeling is that the only kind of programs that could 
undertake this kind of activity are well-supported national 
programs that are in it for the long-term. That is the first.
    The second is simply a lack of basic information about 
natural phenomenon such as host-parasite interrelationships, 
the infectious processes, pathogenesis and so on.
    There is a lot of information that is being generated in 
these areas right now, but it is not to the point where it 
really can be applied for weaponization.
    We recognize fully well that the Soviet Union's scientists 
did use genetic engineering in research to produce some very, 
very frightening or theoretically frightening, hybrids; for 
example, a combination of the Ebola and the smallpox virus, but 
it does not make it a weapon. It only means that they were 
working on it. It might have taken them 5 or 10 years to 
succeed or then might fail entirely to make this kind of an 
organism into a real, useful weaponized agent.
    In the course of focus group discussions, we came up with 
some incidental findings. They include that the most likely 
scenario in the next 5 years for a biological attack is that a 
common food-borne or beverage-borne agent will be used to 
deliberately sabotage food or beverages, and this certainly has 
the capability of injuring hundreds of people, but not 
thousands. An example occurreed in 1984 when there was an 
attack by the Rajneeshee group in Oregon of 10 salad bars that 
affected 751 persons; it is a harbinger for the future.
    Second, it is much less likely that an attack using an 
airborne organism will take place, and that has to do with the 
technical difficulties of formulating the agents for an 
airborne attack. The problems, as was shown by the Aum 
Shinrikyo experience are two. First, they used the wrong strain 
but second the technical part was that they were not able to 
disperse the agent as an aerosol because it clogged the 
nozzles. To overcome this kind of problem is rather difficult. 
It takes a lot of time and a lot of experimentation.
    So moving on to the second part, remarks on the GAO report, 
I am not going to go into the good parts of it, but I will tell 
you about the two problem areas that I had with it.
    The first one, as a scientist, I had real problems with 
some of the terminology, which I found----
    Mr. Shays. For the record, we will note that someone from 
the GAO smiled when you said that you were not going to go over 
the good parts. Were there more good parts than bad parts?
    Mr. Zilinskas. There were more bad parts, unfortunately.
    They used terms like ``valid'' and ``sound'', which sound 
pretty good when you read it, but are meaningless when you 
really look at them. Are you going to use valid data versus--
what--invalid data? Are you going to use sound information or 
do a sound assessment versus--what--an unsound assessment? I 
found this very irritating, and I guess it hindered me to some 
point to--well, maybe not.
    And then the second part is that the heart of this report 
is that it recommends risk assessments to be done, but doesn't 
provide ideas on methods.
    I listened to the GAO talking about methodology. They were 
not talking about methodology whatsoever. They were saying that 
they should put together an interdisciplinary team, they should 
get information from national intelligence estimates, whatever 
that is. Is that a bunch of guesses or are they hard facts? I 
don't know. And so on.
    But there is no set methodology, and I give an example in 
my report of a scientific way of doing scientific assessment 
done by the EPA when it considers the introduction of genetic 
engineered organisms into the environment.
    I also give an example of how I used this protocol, the EPA 
protocol, to do a risk assessment involving the introduction of 
genetically engineered marine organisms into the open 
environment, and found out that I could not do a risk 
assessment. Hey, there is nothing wrong with saying we can't do 
the risk assessment because the necessary information is not 
available. And I find that the necessary information as far as 
terrorist organizations is not there, and it mainly has to do 
with capabilities. There is no way that you can know what the 
capabilities are unless you look at each organization 
individually and then somehow find out if they have access to 
it, microbiologists, chemists, doctors. And, furthermore, 
whether or not these people are willing to lend their skills 
for illicit purposes.
    The second bigger problem has to do with intent. There is 
no way that anyone can read the mind of a terrorist. For 
example, my experience with Iraq, people often ask why did they 
acquire biological weapons? We don't know why they acquired 
them because the only one who has that knowledge in his brain 
in Saddam Hussein, and no one can read that brain.
    In conclusion, my feeling is that you cannot do a risk 
assessment under the terms that is discussed in the report. 
What do we do then?
    Well, my feeling is that you take a common sense approach, 
and the common sense approach, as far as I am concerned, is to 
try to figure out what is the large biological threat facing 
the United States. It is really natural disease outbreaks; 
specifically emerging diseases, reemerging infectious diseases 
and transported infectious diseases in other words, diseases 
coming from somewhere else.
    And if we can do something that meets this threat, the 
overwhelming threat of natural infectious diseases, then we 
have gone a long ways toward at least also being able to 
alleviate the aftereffects of biological attacks by terrorists.
    There is another part of that which I don't go into that 
much, which is how do you prevent terrorist attacks. The only 
way that you can prevent them is by having good intelligence. 
That is something that I don't know anything about because it 
is mostly classified. How do you set up a good intelligence-
gathering system through the intelligence agencies and the 
police forces?
    I say, first of all, deal with the public health and the 
medical aspects, and then we are in a good place to deal with 
the terrorist aftereffects. Thank you.
    [The prepared statement of Mr. Zilinskas follows:]

    [GRAPHIC] [TIFF OMITTED] T3765.047
    
    [GRAPHIC] [TIFF OMITTED] T3765.048
    
    [GRAPHIC] [TIFF OMITTED] T3765.049
    
    [GRAPHIC] [TIFF OMITTED] T3765.050
    
    [GRAPHIC] [TIFF OMITTED] T3765.051
    
    [GRAPHIC] [TIFF OMITTED] T3765.052
    
    [GRAPHIC] [TIFF OMITTED] T3765.053
    
    [GRAPHIC] [TIFF OMITTED] T3765.054
    
    [GRAPHIC] [TIFF OMITTED] T3765.055
    
    [GRAPHIC] [TIFF OMITTED] T3765.056
    
    [GRAPHIC] [TIFF OMITTED] T3765.057
    
    [GRAPHIC] [TIFF OMITTED] T3765.058
    
    [GRAPHIC] [TIFF OMITTED] T3765.059
    
    [GRAPHIC] [TIFF OMITTED] T3765.060
    
    [GRAPHIC] [TIFF OMITTED] T3765.061
    
    [GRAPHIC] [TIFF OMITTED] T3765.062
    
    [GRAPHIC] [TIFF OMITTED] T3765.063
    
    [GRAPHIC] [TIFF OMITTED] T3765.064
    
    [GRAPHIC] [TIFF OMITTED] T3765.065
    
    Mr. Shays. I am going to call on my colleague, but I am 
struck by the fact that your statement was that it is hard to 
make common sense out of terrorists. So it is interesting how 
we would use a common sense approach.
    Mr. Zilinskas. The common sense approach is to say that the 
greater threat is natural infectious diseases. What can we do 
about them? Meeting this threat has to do with surveillance, 
monitoring, and, improving emergency response to outbreaks.
    You have to remember when there is a disease outbreak you 
don't know at its beginning whether it is a natural outbreak or 
it is a deliberately caused outbreak. Therefore, the response 
of public health responders and medical people will be the same 
regardless of what it is. It is only after 2, 3, or 5 days that 
you can determine this. This could have been a terrorist or 
biological attack. At that time, the police enters into it, and 
there is a whole--then you try to get evidence.
    Mr. Shays. It is interesting because we had an example of 
encephalitis in my District and in New York City, and the New 
Yorker or New York magazine had some unnamed source who talked 
about the possibly that this might be a terrorist attack, and 
then we got a lot of calls. And it was interesting how just 
even the inference got people very excited.
    Mr. Zilinskas. I got a lot of calls from reporters on that 
incident, and it happens each time there is an unusual disease 
outbreak. For example, the hantavirus outbreak in 1993 was like 
that. I was getting calls from Albuquerque, Denver, asking, 
could that have been a biological attack? I said, no.
    Mr. Shays. We are going to try to finish before we leave--
we have like 10 minutes.
    Mr. Blagojevich. Thank you.
    Dr. Zilinskas, if I can just followup, you are suggesting 
that the enhancement of the ability of public health and health 
delivery systems to respond to these disease outbreaks is 
essential. Can you give us some more suggestions on how you 
would enhance the public health sector so they can respond 
properly?
    Mr. Zilinskas. What happens when you have a disease 
outbreak of any type, you suddenly have a lot of people who 
become sick. First of all, you have to treat these people in an 
adequate way. The problem of treating a large number of people 
might overwhelm local systems. Therefore, we have to do an 
assessment of what local systems can do. And then, if they are 
in a situation where they can't handle a large outbreak, what 
kind of assistance can be immediately available at the State 
level and eventually, the Federal level, and that includes 
military forces.
    I would imagine that a large disease outbreak there would 
create a lot of logistical problems, and maybe, problems having 
to do with deciding who has authority and so on. All of that 
has to be solved. That is the treatment part.
    The second part is the investigation to find out what the 
etiology of the disease was, and that involves using trained 
people in epidemiology, both molecular and classic 
epidemiology, and having them immediately available for this 
kind of work.
    So I think that is important, to increase our capabilities 
at the local and at the State levels especially to immediately 
investigate disease outbreaks.
    Mr. Blagojevich. Thank you, Dr. Zilinskas.
    Mr. Jenkins, you also suggest that, rather than focusing on 
probability predictions and infinite vulnerabilities, we 
instead work toward creating capabilities that will help us 
with or without chemical or biological attack. You mention 
enhancing intelligence and improving food safety. What do you 
think should be done to help prepare the public infrastructure 
with regard to that?
    Mr. Jenkins. I think some of the comments just made would 
address that particular issue. My point is to find areas where 
we can devote resources, since we are spending this money, that 
we will get permanent benefit out of it.
    If we go back in our own history in this country, we have 
had experience with large-scale outbreaks of infectious 
diseases. We at one time had a very powerful U.S. Public Health 
Service with extraordinary authority granted to it to deal with 
outbreaks of typhoid, yellow fever, Spanish flu and things of 
this sort.
    As we have become a somewhat safer society, we have lost 
some of that capability. Now that we are faced again with the 
reappearance of some of these diseases as a result of increased 
global travel, global food supplies, some of these issues have 
reemerged, and we have to go back and develop some of these 
capabilities.
    Mr. Blagojevich. Thank you.
    Mr. Shays. Mr. Parachini, I was struck by the fact that you 
wanted to look at the events that have already taken place and 
try to analyze the behavior, and I was just struck by the fact 
that I didn't feel that they were as relevant because I don't 
think they are a precursor of what is going to happen in the 
future.
    Now, I guess I would have no likely basis for making that, 
but it seems some of it was domestically focused. In other 
words, in many instances they were domestic terrorism. I am 
struck with the information that I have seen that our biggest 
concern is not domestic.
    Mr. Parachini. Most of the cases now that the FBI is 
looking into, about 85 percent are domestic threats. The 
variety of threats we face now, we previously had always 
thought of foreign threats. We did not think that this would 
happen here in the United States, but Oklahoma City should be 
the clear signal that there are threats here that are domestic.
    If indeed it is right that there are all of these 
capabilities here in this country to procure materials, many of 
them commercially available, there are plenty--this is a large 
country with a lot of people with different agendas. It seems 
to me no accident that the FBI is mainly following domestic 
cases and not foreign cases.
    Mr. Shays. Right. But when we were overseas--I was struck 
by the fact that in one country they were trying to explain to 
us that the United States can bully every nation--and I don't 
mean that in a pejorative sense. We have incredible military 
powers, so we force our adversaries to look at other ways to 
deal with the United States.
    Mr. Parachini. So they may be looking at asymmetrical 
attacks, and I want to draw a distinction on asymmetrical 
attacks on our forces abroad and asymmetrical attacks here 
within the United States. I think it is harder--the closer you 
get into the United States, it is harder to do. And we have 
within our own borders many people who have strong grievances 
against the Federal Government or against other people who are 
willing to do that.
    Mr. Shays. I guess what I am going to say is that I think 
your analysis is more valuable as it relates to how we would 
respond to a domestic attack. It would probably be a little 
easier for us to take that information and then translate it 
into something useful. But I think we are facing a whole new 
potential level of activity that we can't draw on the past.
    Let me ask the other two to respond to that in any way that 
you want.
    Mr. Jenkins. Could I add a comment to that? I think there 
is some relevance in the historical analysis that has been done 
here.
    First of all, there are incidents drawn from various parts 
of the world. There is Aum Shrinrikyo. There are other things 
that have happened outside of the United States.
    During the same period of time, if we take those incidents 
that have happened since 1970, discarding the first one on the 
top of that list, there were 11 incidents; 11 incidents out of 
what are more than 10,000 international terrorists incidents. 
If we indeed add domestic terrorists incidents around the 
world, we are talking about a universe of tens of thousands.
    The fact that there have been very few. It doesn't give us 
an actuarial chart, it doesn't give us the scientific 
confidence that we would want to have, but, nonetheless, it 
does permit an inference that this is a pretty rare event.
    Mr. Shays. Let me respond to that, because you really 
triggered something. I was here in 1968 as an intern for what I 
think was the first hijacking of an airliner to Cuba. The first 
became--we lost track of the number. So I am struck by the fact 
that if we use that kind of analysis, we never would have 
thought that there would be a hijacking of a plane and then 
wouldn't have been able to deal with the plethora of attacks 
that followed.
    Mr. Jenkins. I agree with the fact that history does not 
suggest that things cannot occur. There are always going to be 
unprecedented events.
    However, a number of groups have looked at this, a number 
of groups have certainly contemplated this, and some attempts 
have been made. What is striking is the lack of imitation, to 
go back to your own analogy. The first politically motivated 
hijacking took place in 1968. Within the following 4 years, we 
were dealing with hundreds of hijackings that forced us to take 
extraordinary security measures. In the 4 years since Tokyo, we 
haven't seen anything.
    Mr. Shays. You have made that point.
    Let me tell you the challenge. We have a series of votes. 
We have your statements in the record, and they are all 
valuable and helpful. We are just scratching the surface.
    I am going to adjourn the hearing because we will be tied 
up for a bit, and I do not want to hold you. Thank you very 
much.
    [Whereupon, at 12:20 p.m., the subcommittee was adjourned.]

                                  <all>

</pre></body></html>
